<html>
<title> - ASSESSING INADEQUACIES IN VA DATA USAGE FOR AND SERVICES PROVIDED TO VISUALLY-IMPAIRED VETERANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 ASSESSING INADEQUACIES IN VA DATA USAGE FOR AND SERVICES PROVIDED TO 
                               VISUALLY-IMPAIRED VETERANS

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATION

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         THURSDAY, MAY 29, 2014

                               __________

                           Serial No. 113-70

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-981                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATION

                    MIKE COFFMAN, Colorado, Chairman

DOUG LAMBORN, Colorado               ANN KIRKPATRICK, Arizona, Ranking 
DAVID P. ROE, Tennessee                  Member
TIM HUELSKAMP, Kansas                MARK TAKANO, California
DAN BENISHEK, Michigan               ANN M. KUSTER, New Hampshire
JACKIE WALORSKI, Indiana             BETO O'ROURKE, Texas
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.















                            C O N T E N T S

                              ----------                              

                         Thursday, May 29, 2014

                                                                   Page
Assessing Inadequacies in VA Data Usage for and Services Provided 
  to Visually-Impaired Veterans..................................     1

                           OPENING STATEMENTS

Hon. Mike Coffman, Chairman......................................     1
    Prepared Statement...........................................    34
Hon. Ann Kirkpatrick, Ranking Member.............................     2

                               WITNESSES

Mr. Travis Fugate, Veteran.......................................     4
    Prepared Statement...........................................    35
Mr. Terry Kebbel, Veteran........................................     5
    Prepared Statement...........................................    38
Mr. Gleen Minney, Veteran........................................     6
    Prepared Statement...........................................    42
Dr. Maureen McCarthy, MD, Deputy Chief Patient Care Services, 
  Veterans Health Administration, Department of Veterans' Affairs    22
Ms. Lorraine Landfried, DCIO for Product Development, Office of 
  Information Technology, Department of Veterans' Affairs........    23
    Combined Statement of Dr. McCarthy and Ms. Landfried.........    46

    Accompanied by:
        Dr. Mary Lawrence, MD, Deputy Director, Vision Center of 
            Excellence

    And

        Mr. Pat Sheehan, Director, 508 Compliance Office, 
            Department of Veteran' Affairs

                             FOR THE RECORD

Attachment of VCE................................................    54
Questions for the Record From: Subcommittee Chairman Mike Coffman    55

 
 ASSESSING INADEQUACIES IN VA DATA USAGE FOR AND SERVICES PROVIDED TO 
                       VISUALLY-IMPAIRED VETERANS

                              ----------                              


                         Thursday, May 29, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
               Subcommittee on Oversight and Investigation,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
Room 334, Cannon House Office Building, Hon. Mike Coffman 
[chairman of the subcommittee] presiding.
    Present:  Representatives Lamborn, Roe, Huelskamp, 
Benishek, Walorski, Kirkpatrick, Takano, Kuster, O'Rourke, 
Walz.

           OPENING STATEMENT OF CHAIRMAN MIKE COFFMAN

    Mr. Coffman. Good morning. This hearing will come to order. 
I want to welcome everybody to today's hearing titled Assessing 
Inadequacies in VA Data Usage for and Services Provided to 
Visually Impaired Veterans.
    My name is Mike Coffman and prior to hearing testimony and 
asking questions to our witnesses, I ask that each member state 
his or her name to assist our witnesses in identifying who is 
speaking. Thank you for your cooperation. Now let us begin.
    This hearing focuses on continued problems within VA that 
have caused its contribution to the Vision Center of Excellence 
to stagnate, allowed VA systems to continue to operate in non-
compliance with Section 508 of the Americans With Disabilities 
Act, and compromised other services provided to veterans with 
visual impairments.
    The creation of the Vision Center of Excellence, or ``VCE'' 
as we will refer to it today, was mandated by the National 
Defense Authorization Act of FY 2008. It stated that the 
Department of Defense was required to create the facility and 
to collaborate with the Department of Veterans Affairs in doing 
so.
    One of the main responsibilities required in the 2008 NDAA 
for the operation of the VCE was to ``enable the Secretary of 
Veterans Affairs to assess the registry and add information 
pertaining to additional treatments or surgical procedures and 
eventual visual outcomes for veterans who were entered into the 
registry and subsequently received treatment through the 
Veterans Health Administration.''
    The reference to the Registry is that the Department of 
Veterans Eye Injury and Vision Registry, which we will also 
refer to as the ``Registry'' today for convenience. The DoD has 
done a commendable job of populating the Registry with over 
20,000 unique patient entries. However, the most recent number 
VA has provided the Committee regarding the contribution of the 
Vision Registry is one entry. One, compared to 20,000.
    Notably, in an October, 2013 briefing, VA staff stated that 
the one entry was just a test case to ensure that the transfer 
of information would work. So, essentially, VA had not entered 
in any veterans information into the Registry, which precludes 
VA from meaningfully contributing to the very purpose the 
Registry was created--``to collect the diagnosis, surgical 
intervention, operative procedures, and related treatments, and 
follow-up on each significant eye injury incurred by members of 
the Armed Forces while serving on active duty.''
    We will hear from a veteran today who will articulate the 
importance of VA fulfilling its obligation to contribute to the 
Registry. Another major issue we will address today is VA's 
continued failure to bring its information systems into full 
compliance with Section 508 of the Americans with Disabilities 
Act.
    The two separate of the Section 508 addresses access for 
people with physical, sensory, or cognitive disabilities in 
various types of technologies. Two separate memoranda, dated 
July 26, 2012, issued by then Assistant Secretary for 
Information and Technology, Roger Baker, illustrated the 
ongoing problems with VA regarding Section 508 compliance. Both 
memoranda reference how recent audits conducted by VA show that 
most of the content and information on VA web sites was not 
Section 508 compliant.
    Further, in a 2012 VA dashboard summary analysis, every 
site review showed a status of less than 50 percent compliance 
with Section 508. Some notable examples include VA jobs, e-
benefits, and VA forms. VA jobs at 80 percent critical, e-
benefits at 95 percent critical, and VA forms at 100 percent 
critical.
    The rating of critical in the analysis states that the 
listed percentage is the amount of that web site that is 
completely inoperable.
    We will hear today in VA's testimony that they are making 
great strides in bringing VA systems into compliance with 
Section 508. However, we will also hear from a blinded veteran, 
who must actually navigate these pages himself. He may be 
inclined to disagree.
    With that, I now recognize Ranking Member Kirkpatrick for 
her opening statement.

    [The prepared statement of Chairman, Mike Coffman appears 
in the Appendix]

      OPENING STATEMENT OF ANN KIRKPATRICK, RANKING MEMBER

    Ms. Kirkpatrick. Thank you, Mr. Chairman. I am Ranking 
Member Ann Kirkpatrick from Congressional District 1 in 
Arizona.
    The hearing topic today is an important one and I look 
forward to an in-depth discussion with our witnesses. Today we 
are examining the Department of Veterans Affairs role in the 
operation of the Vision Centers of Excellence and Section 508 
of the Rehabilitation Act of 1973 compliance as they relate to 
proper access and services for blinded veterans.
    We will also hear the testimony of Mr. Glenn Minney, from 
the Blinded Veterans Association on HR 1284, a bill introduced 
by my colleague and Ms. Brownley, a member of the House 
Committee on Veterans Affairs, and Ranking Member of the 
Subcommittee on Health.
    This bill will expand the VA's Beneficiary Travel Coverage 
Program for some veterans who are not currently eligible for 
beneficiary travel, but who are in need of treatment at one of 
the VA's Blind Rehabilitation Centers or Spinal Cord Injury 
locations.
    Mr. Minney, I look forward to hearing your testimony and as 
a result of being a cosponsor of HR 1284, I believe this bill 
will help remove another access to care obstacle within the VA 
medical system for our veterans.
    Many of our visually disabled veterans would greatly 
benefit and become capable of living independently in their own 
homes if able to receive rehabilitation. However, some of these 
veterans are not able to receive these treatments because of 
high travel costs and ineligibility for beneficiary travel 
under the VA programs, and this is a special problem in my 
district, which is a very large rural district in Arizona, and 
my veterans have to go to three different veterans hospitals 
depending on where they live, and travel hundreds of miles.
    This bill will expand eligibility for beneficiary travel so 
that more veterans are able to receive rehabilitative 
treatments.
    I understand that in the current conflicts, eye injuries 
have accounted for approximately 15 percent of all battlefield 
traumas. We also know that as many as 75 percent of traumatic 
brain injures, those patients also suffer visual dysfunctions 
that can affect their quality of life.
    When the Vision Center of Excellence was envisioned and 
established through the 2008 National Defense Authorization 
Act, the Department of Defense, in collaboration with 
Department of Veterans Affairs, was tasked with prevention, 
diagnosis, mitigation, treatment, and rehabilitation of eye 
injuries. While it took some time, I understand that the Center 
is now functioning, although problems such as staffing, 
funding, and clear policy remain challenging.
    In addition to the Center, the 2008 National Defense 
Authorization Act also required the establishment of a Vision 
Registry. I look forward to hearing from our witnesses today on 
the progress of that collaboration, especially enrollment and 
seamless transfer of VA vision care data to the Vision 
Registry.
    Mr. Chairman, while the wars may be winding down, we know 
that the need for research, treatment, and rehabilitation will 
remain for eye injury veterans for decades to come. Today we 
are also looking at the Department of Veterans Affairs 
compliance with Section 508 of the 1973 Rehabilitation Act.
    Section 508 addresses access for the disabled to different 
types of technology. According to VA testimony, VA systems are 
still not compliant with the law. One of our witnesses today 
described the difficulty of navigating through the VA web sites 
because they are not 508 compliant, causing him frustration and 
a lot of extra time to get the information he is looking for.
    Eye injured veterans are already challenged and we should 
be working as fast as we can to ensure that their next 
encounter on the VA web sites will not be so difficult.
    I would like to hear from our VA panel what they are doing 
to become compliant, why is it taking so long, and what 
resources are needed, if any, to aid in becoming compliant. We 
need to get this right sooner rather than later.
    Thank you, Mr. Chairman. I yield back.
    Mr. Coffman. Thank you, Ranking Member Kirkpatrick. I ask 
that all members waive their opening remarks as per this 
Committee's custom.
    With that, I welcome the first panel at the witness table. 
On this panel, we will hear from Mr. Travis Fugate, Kentucky 
National Guard, Retired; Mr. Terry Kebbel--did I say that 
right--United States Army, Retired; and Mr. Glenn Minney, 
Director of Government Relations for the Blinded Veterans 
Association. All of your complete written statements will be 
made part of the hearing record.
    Mr. Fugate, you are now recognized for five minutes.

                 STATEMENT OF MR. TRAVIS FUGATE

    Mr. Fugate. Thanks, Chairman, and Ranking Member, for 
inviting me here to speak again.
    It was over five years ago that I came here to speak about 
the VCE. It had been--the creation had been mandated the year 
prior to the time that I spoke before, which was March, 2009. 
Only a week before the day that I spoke, I had been told that 
my vision was totally gone and I wouldn't see again.
    Most people who reviewed the case agreed that the vision 
that I had lost--let me explain something further. When I was 
injured, I had some remaining vision and I had it for three 
years, and then I got an infection within the VA and the 
doctors did not have access to the proper medical data. So they 
failed to do preventative surgeries, and when I had an 
emergency situation, they did not have access to the medical 
documentation, which may have lead to the vision loss that 
resulted after the surgery.
    Since I was here before, I have went on. I have went to 
school. I have worked to improve myself and my life. I have 
been active in the VA and the Blinded Veterans Association, 
trying to help other blinded veterans. I meet new young blind 
men coming from the wars every year.
    I am interested in hearing you ask questions about how 
things have changed since the testimony in March, 2009, in 
which I participated. If some young man went into the VA 
tomorrow, as I did, would his doctors be able to have access to 
electronic data that would allow them to perform preventative 
surgeries and see all of the surgeries he had in the past, or 
she?
    I am open for questions.

    [The prepared statement of Travis Fugate appears in the 
Appendix]

    Mr. Coffman. Thank you so much for your testimony, Mr. 
Fugate. Mr. Kebbel, you are now recognized for five minutes.

                   STATEMENT OF TERRY KEBBEL

    Mr. Kebbel. As a blinded veteran, I have had an opportunity 
to assist other blinded veterans on how to use websites. We 
have done a good job of describing what 508 is, compliance. We 
have done a good job of stating that we need to do something 
about it. I want to talk about what we have not done yet, okay?
    As I was asked to investigate ten websites or ten web pages 
for this testimonial. I had the opportunity to design, with 
some help from some other blind veterans, a form that helped us 
to evaluate each of those web pages. In my opinion, each of 
those web pages failed. Each of those web pages failed in 
different areas--some very major and some very minor.
    When I get the opportunity to read a web page, I would like 
to be able to navigate properly, and I can do that with 
headings. And headings is a way for a non-visual person like 
myself to navigate a web page.
    One of the pages I evaluated had no heading level--heading 
on the page, which means that I have to navigate the whole web 
page to find out what the purpose of that web page is. A 
sighted person can visualize it and see what that purpose is 
right away.
    Another page that I had the opportunity to evaluate was one 
with link problems and I was kind of interested when you said 
the forms page failed 100 percent, well I am in total agreement 
with that one. I had the--you know, when I went to the web page 
I listed the links on the page and there was 217 of them, and 
these are links to forms. Every one of those links were named 
by a numerical number. It had no description on what that form 
was.
    Another one was--another form I evaluated is where I went 
to the web page. The first one I downloaded it was a form to 
fill in, okay? The first thing I noticed was that it was an 
image file. Well, for those of us who use a screen reader and 
who are blind, we know that we can not look at pictures, and 
that is an image file. So I can not read that image file.
    The second thing is that it was a form I was supposed to be 
able to fill out. Well, if it is an image file and there are no 
form of edit boxes on that page, I can not fill in the 
information needed to fill out that form.
    So when I hear that we are making progress on it, it is 
difficult for me to believe. You know, I would like the same 
opportunity to read a web page as a sighted person, and I can 
do that on web pages. I can go to Open Culture, which is a 
website from Stanford University and access all their 
information. I can take courses there. I can, you know, do a 
lot of things on that particular web page.
    I can go to the Library of Congress and do the same thing. 
I can go to the National Federation of the Blind, which is 
probably one of the best websites that I know of, and read as 
if I was a sighted person.
    What concerns me the most is that we are sitting here 
arguing about are we compliant or not. When I went to Viet Nam, 
I went to Viet Nam as a volunteer. I did not go because it was 
the law, you know, I went because I thought it was the right 
thing to do. And as we sit here now, I think the right thing is 
to do is to make it compliant, whether it is not the law or 
not. I just think it is an issue of that you have the right to 
do it.
    As I look back, you know, in the 20th century, the law 
became in fact, okay? We are now 13 percent into the 21st 
century, and as far as I am concerned, we have not made any 
progress. And I am not going to be around for the 22nd century, 
so I do not think I am really going to see anything happen.
    Thank you.

    [The prepared statement of Terry Kebbel appears in the 
Appendix]

    Mr. Coffman. Thank you so much. And an inability to access 
care is really no different than a denial of care.
    Mr. Minney, you have five minutes for your remarks.

                   STATEMENT OF GLENN MINNEY

    Mr. Minney. Chairman Coffman, Ranking Member Kirkpatrick, 
and other distinguished members of the House Veterans Affairs 
Subcommittee on Oversight Investigation, thank you for allowing 
the Blind Veterans Association and its members to appear before 
you today. The Blind Veterans Association is here to express 
our views and concerns regarding specific VBA issues. The issue 
I am going to discuss is HR 1284, the Beneficial Travel.
    As a Director of the government relations for VBA, I have 
already spent many hours and days with members of the House 
Committee on Veterans Affairs regarding this bill. For veterans 
who are currently ineligible, which are non-service connected 
veterans for beneficiary travel, Title 38, U.S.C. Section 111 
does not cover the costs of travel for those non-service 
connected veterans to one of the 13 blind rehab centers or to 
any of the 28 spinal cord injury locations.
    If the law continues to stay as written, the non-service 
connected veteran must bear the financial hardship of 
purchasing their own mode of travel to one of these rehab 
centers. The cost will certainly continue to discourage the 
non-service connected veteran from traveling to a blind rehab 
center or spinal cord injury center.
    At this time, most of the ER non-service connected veterans 
are of the age of 67 years old and their blindness or vision 
impairment is due to age-related conditions. They often live on 
Social Security, which is approximately $1,450 a month. And 
with having that limited income and requiring them to pay for 
their own mode of travel to a rehab center, that is really 
going to pay dividends and be detrimental to their monthly 
income.
    The Chief Business Office has scored this bill, HR 1284, as 
$3 million which, to be honest, I do not think that is true. 
Because as the language states in Title 38, what we want 
changed is for it to say that it covers non-service connected 
veterans. We are not wanting $3 million. We are just wanting 
the wording, the language to state that 1284 covered non-
service connected veterans as well as service connected 
veterans so they can have the access to the rehab centers that 
the VA has out there--the 13 blind rehab centers and the 29 
spinal cord injury facilities.
    In a letter dated May 21, 2013, Under Secretary of Health, 
Dr. Robert Jessie clearly stated, ``VA supports the intent of 
broadly travel eligibility for those who can most benefit from 
the program.'' And also he states the VA welcomes the 
opportunity to work with this Committee to craft the 
appropriate language so that those who are not service 
connected can have access to those rehab treatment facilities.
    One thing I have ran into with several other members, 
speaking with them, is the word, the ``pay for'' or the ``pay 
go.'' Well, VA travel budget continues to increase every year 
and they ask where are we going to get this $3 million? Well, 
in 2013 the VA collected $2.913 billion through the Medical 
Care Collection Fund. Well, there is money that they have 
collected and I sat up last night listening to last night's 
hearing: $1.1 billion returned two years ago, $1 billion 
returned last night, and a half billion returned just this 
year. If there is that much money that can be turned back in 
from the VA to Congress, well, there is our $3 million to send 
these non-service connected veterans to the rehab that they so 
dearly deserve.
    So there is no pay for or pay go. The money is there. It 
was clearly stated last night in the hearing that the VA is 
giving the money back. So if you want to pay for it, there is 
your pay go.
    Also, the VA right now is currently--there are 147 state 
veterans homes. I have been collecting data, and right now I 
have got 14 of those state veterans homes, which is ten 
percent. And of those--that 10 percent, those state veterans 
homes house 268 veterans who are there for blindness or visual 
impairment.
    Each one of those veterans the VA pays a per diem of 
$100.37 a day per vet per day. You add that up--266 vets, 365 
days a year--that is just ten percent. Now let us make it 100 
percent, and to be honest, that total is $97.5 million annually 
we are paying to house veterans in state veterans homes just 
because of blindness. If we can send them to a blind rehab 
center, get them the rehab that they so dearly deserve, how 
many of them could we offer the opportunity to live 
independently? Not house in a state veterans home, but live 
independently--live on their own.
    The one thing I did want to mention here is, just remember 
this: there is no cure for blindness. There is not, no matter 
how much research we do. But what there is is rehab for those 
who are blind or visually impaired, and getting that rehab will 
allow them to enrich their lives, become independent, and be 
active members of their community. So let us not say, well, you 
are not service connected so we will not send you to a rehab.
    You know, blindness does not discriminate between service 
connected and non-serviced connected, and it does not know. 
Blindness is blindness. Let us eliminate service connected and 
non-service connected. Let us send the blind veteran to the 
rehab that the VA is providing.
    And lastly, I want to make this quote. George Washington 
once stated, ``The willingness to which our young people are 
likely to serve in any war shall be directly perpetual to how 
they perceive the veteran of earlier wars were treated and 
appreciated by their Nation.'' This quote clearly begs the 
following question: As generations pass, will this great Nation 
continue to see young people volunteer to join the Armed 
Forces, knowing that their future healthcare issues will not be 
covered by the VA? Are we willing--are we all aware of the 
issues surrounding what is going on right now? Are we willing 
to enrich the lives of hundreds of non-service connected 
veterans by allowing them to go to a blind rehab center? Are 
you willing to sponsor 1284, push it up and see to it that it 
is voted on so that the non-service connected veteran can get 
the same rehab that the service connected veteran gets?
    Thank you, ladies and gentlemen.

    [The prepared statement of Glenn Minney appears in the 
Appendix]

    Mr. Coffman. This is Mike Coffman, Mr. Minney. Thank you 
for your testimony. I have got a few questions. Again, this is 
Mike Coffman.
    Mr. Fugate, unfortunately your story is not likely a unique 
one. Have you found that other blind veterans have gone through 
similar experiences with VA's failure to populate the Vision 
Registry?
    Mr. Fugate. It is really hard for me to say that I know 
individuals who have had situations that match to my own, but I 
am sure that they exist.
    Mr. Coffman. Okay. Mr. Fugate, again, Mike Coffman. In your 
opinion, what would have been the benefits during your past 
surgeries had the VA contributed to the Vision Registry?
    Mr. Fugate. If my information was accessible to the VA 
doctors when I first met them, rather than asking me about the 
surgeries I had and thumbing through a two-inch stack of 
documents, they would have had access to--better access to the 
information. They would have seen that the DoD doctors wanted 
me to have a preventative surgery within the year. I told the 
doctor that. The doctor--my word is not as strong as the 
military doctors that had made the suggestion to me at Walter 
Reed.
    Mr. Coffman. Okay.
    Mr. Fugute. Also, I am a number. I am a statistic, and it 
is meaningless. There is no research being done on the numbers. 
If my information and all of the other blinded veterans' 
information were in this data set, much more information could 
be discovered and we could direct ourselves forward to help 
us--help us all much better.
    Mr. Coffman. Thank you. Again, this is Mike Coffman. Mr. 
Kebbel, thank you for providing a number of findings and 
observations for improving the VA's compliance with Section 
508. Have you had an opportunity to share your findings with 
the VA?
    Mr. Kebbel. This is my first opportunity to do that, but I 
do share my findings with other veterans. I belong to a lot of 
virtual supports groups in which us veterans talk about 
problems with veterans web sites. You know, how to deal with 
the inconsistencies, how to deal with the inaccuracies and how 
to deal with the problems of filling out forms. So, I do that 
virtually.
    Mr. Coffman. Okay. Mike Coffman, again. You stated earlier, 
Mr. Kebbel, you stated earlier that there are many good 
examples of 508 compliant web pages. Do you and your team keep 
repository of best practices and lessons learned associated 
with that? And do you have a list of performance metrics that 
agencies such as VA can strive to achieve?
    Mr. Kebbel. Yes, we do. It is in various forms. It is not 
in one form that I would consider accessible yet and we're in 
the process of developing that.
    Mr. Coffman. Thank you very much. Ranking Member 
Kirkpatrick.
    Ms. Kirkpatrick. Thank you, Mr. Chairman. Mr. Fugate, one 
of the things that our committee has been focused on is 
creating and making sure there is a seamless transfer of 
records from DoD to VA so that there is no gap at all in the 
records that a doctor might see, the day that you transition 
our of the Department of Defense. So, I am curious, did Walter 
Reed have the Department of Defense records but just not look 
through them? Can you just explain that to me?
    Mr. Fugate. Walter Reed had my medical records and it was 
at the VA that I had the complications. It was the transfer 
between Walter Reed and the VA.
    Ms. Kirkpatrick. So, did the VA have your Department of 
Defense records?
    Mr. Fugate. My first meeting with my doctor at the VA was 
surprising. My father drove me three hours to get to the 
facility. I lived at the time in back glacier mountains of 
Eastern Kentucky. Once we got to the meeting the doctor came 
and sat with me and the nurse brought in my records, which was 
a big, heavy stack of records. I could not see them, but I 
heard the thump and he said there was--something along the 
lines of he could not do anything with that, he would have to 
review it later and find the information and I was sent back 
home, sent along my way.
    Ms. Kirkpatrick. Even though you told him that the doctors 
recommended that you have preventative surgery within a year?
    Mr. Fugate. Absolutely. I told him that numerous times and 
after probably the third time he said that it was better for us 
to wait until an issue occurred and address it then and I am 
pretty sure he must have been aware that I was commuting two 
and a half, three hours.
    Ms. Kirkpatrick. Well, I am so sorry that treatment was not 
given to you in a timely manner and I just want to say your 
positive attitude is really an inspiration and I thank you for 
coming again. And I just wanted to take you up on what you said 
in your testimony and ask you what changes you have seen since 
your testimony before the committee in 2009.
    Mr. Fugate. I have been deeply involved in my education. 
But, yearly I catch up with my blind veteran friends at the BVA 
and it is--every year it gets more discouraging, so for the 
last year or so I have stopped asking about it because it was 
just depressing to me. And this year when I got with them they 
told me that for the past years the staffing was inadequate and 
that the records were not being put into the registry and the 
collaboration was not taking place as it was supposed to. I 
never got any positive information about the progress of the 
VCE.
    Ms. Kirkpatrick. If there were one thing that our committee 
could do to make a difference in that area, what would that be, 
in your estimation?
    Mr. Fugate. To ask to--to see what--to ask the people 
responsible what they were asked to do and which of those tasks 
they've completed and how long it took them to complete that 
task. Just to hold the people responsible for creating this 
wonderful tool for us.
    Ms. Kirkpatrick. Mr. Chairman, I think that is what our 
committee should do. And, Mr. Fugate, I understand that you are 
friends with our colleague, Tim Walz, and I am not going to 
hold that against you, but actually I want to tell you that he 
is a ardent supporter, a passionate advocate for our veterans, 
you could not have a better friend.
    So, thank you very much for your courage and your testimony 
here today. I yield back.
    Mr. Fugate. Thank you.
    Mr. Coffman. Thank you, Ranking Member Kirkpatrick. Dr. 
Huelskamp, you have five minutes.
    Dr. Huelskamp. Thank you, Mr. Chairman. It seems like I was 
just here a few minutes ago and I do appreciate having more 
time to discuss these, but I appreciate the testimony. My name 
Tim Huelskamp and here from the State of Kansas.
    Mr. Fugate, I hope I pronounced your name correctly, mine 
is often mispronounced as well. But a little follow up on your 
particular situation and one thing I have seen lacking in just 
my years in Congress is accountability.
    Systems do fail. People do fail. I am curious with your 
particular situation and you described it in your testimony--in 
written and oral testimony. Has the VA followed up with you 
after this fact and determined yes, this is where we failed in 
this system? I mean, I see a number of things that, obviously, 
the electronic medical records did not happen and I'll have a 
follow up question for Mr. Minney about other items in that 
vein.
    Did the VA ever contact you after this or after your 
testimony and say, hey this is where we failed? This is the 
doctor, this is where the system failed for you?
    Mr. Fugate. No. No one ever phoned that I can recall, 
explained to me where the failure occurred or held themselves 
accountable or provided an apology. I have stuck with the VA 
and I have had great medical care and met and became friends 
with a lot of medical professionals within the VA, but the 
system clearly, clearly failed in my case and no one ever has 
explained to me what happened.
    Dr. Huelskamp. Do you still travel two and a half hours to 
a VA center for your current care with the VA or have you found 
one closer to you that would let you--or did you move? Can you 
describe that a little bit more? I come from a very rural 
district, plenty of veterans as well have to drive 100, 200, 
300 miles one way for care often times they could get next door 
almost, literally, and the VA says no, you have to drive. And I 
am just curious of your particular situation.
    Mr. Fugate. I moved out to California to go to school, to 
California State Monterey Bay. Luckily there is a VA in Palo 
Alto, a branch of the Pal Alto system right next to my campus. 
So, that was very helpful for me.
    I have came back home to Eastern Kentucky to spend some 
time with my family and we now have a branch of sorts. It is an 
office and a medical facility. They do not--I can't get my 
medications there. I still have to travel or get them by mail. 
So, I have seen improvements in trying to get centers or 
branches into rural areas.
    Dr. Huelskamp. Yeah, appreciate that and I appreciate your 
testimony today. Mr. Minney, a follow up question. This 
electronic medical records issue which has been plaguing the VA 
and the DoD attempting to communicate. It is my understanding 
that it often--actually happens in the private world, they 
actually do communicate. It is a fairly regular process, but 
the VA and DoD cannot do that, it is my understanding. Can you 
describe the situation that occurred with Travis? Given the 
current scenario, would that likely occur again when a veteran 
walks in and says, here is my medical records where they show 
it is just paper; is that still the situation in many cases?
    Mr. Minney. Yes, it is. Travis was one of the unique 
individuals because he actually did have a copy of his health 
records. But I spent 21 years in the Navy as a corpsman in the 
medical field and then once I retired from there, then I 
actually went to work for the VA. So, I can tell you right now, 
DoD health records, they're not being transferred into the VA 
healthcare system.
    If you take a young 0311 Marine that gets injured and he 
gets surgery and lunch stool, when he gets back home and he 
goes into a VA healthcare system and a doctor will ask him, 
what surgeries did you have? He is not going to know the names 
of these surgeries. So right there the VA has to start from 
scratch and build a health profile on him.
    If there was a transfer of those health records or a joint 
health record, the VA could access his DoD health records and 
see exactly what surgeries he has had, what medications he's on 
and what therapies he is needed. That is where the benefit 
would come into play, but no, not everybody was as fortunate as 
Travis to actually have a copy. Some of the injured show up at 
the VA with nothing, no documentation at all.
    Dr. Huelskamp. Thank you, Mr. Minney, Mr. Fugate. I yield 
back, Mr. Chairman. Thank you.
    Mr. Coffman. Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Huelskamp, that 
last question brought up some very, very bitter memories. I 
mean, one of my first committee hearings was about this issue 
of the medical records not being able to be transferred from 
DoD into Vista and I can barely contain the anger I feel about 
this situation and the millions and millions of dollars that 
have been spent trying to solve this situation, and then to 
hear in the interim months between my first hearing and now, 
that there seems to be no way to bridge this gulf between the 
two departments.
    It is bad enough to see a casualty of war, but it is even 
worse to see that casualty of war made even more tragic by this 
systemic failure between these two departments. I do not know 
what to do about this. I mean, it is frustrating to be a member 
of Congress and not be able to say, fix this thing and have it 
fixed.
    That being said, I do want to say to Mr. Fugate and--is it 
Mr. Kebbel or Kibbel? Mr. Kebbel, that I am proud to have 
started the first deaf caucus in the Congress, I'm one of the 
co-chairs and it has put me in touch with the disabilities 
community. One of the useful things that has come out of that 
is that we've made a commitment to have an intern from the deaf 
community from Guidant University. It is my belief that some of 
the disabilities communities are not well represented by 
advocates here on the hill compared to all the other very 
strongly represented interests here.
    And I want to ask Mr. Fugate, you're a young man and you're 
getting an education at Cal State. I am proud to call you a 
Californian now. Have you given much thought to what direction 
your life might take at this point?
    Mr. Fugate. I was really excited after having the 
opportunity to speak here back in 2009. It felt great to be 
heard, but as the year went on and a couple more years passed 
and things did not happen, it was very discouraging. So, I was 
really happy that I had picked a career in computer science 
where I could talk to computers instead of asking people for 
help.
    Computers are much easier to talk to. They give you the 
answers out one end, so my path is in technology.
    Mr. Takano. Well, I am wondering if there might be some 
individuals in your capacity--the same situation that might be 
willing to intern on the hill to be able to kind of be a 
constant reminder to members about just what are the 
challenges.
    Mr. Minney, if there might be a way for us to have a 
pipeline of veterans in this situation, that might facilitate 
that. This is going to take a long--I mean, it has been 
several--I don't know how much time it's taken to get attention 
focused on DoD and the Veterans Affairs Department--the VA on 
its records issue--the health records issue and it seems like 
it is going to take us several more months, if not years of 
focus.
    Might it not be helpful to have a way to get some of these 
service members to intern or to even to have staff positions 
here on the hill?
    Mr. Minney. I think it would be an absolute wonderful thing 
to have a few blind veterans here up on the hill for the simple 
fact as members of Congress are walking the halls, their staff, 
or even individuals from the outside coming in, if they see the 
blind veteran maneuvering the halls, getting around, and seeing 
that their disability is not hindering them from being an 
active member of society or the community, then I am all for 
having some blind veterans doing internship here on the hill 
and I would advocate for that.
    Mr. Takano. Mr. Kebbel, do you think that we could 
understand--members might understand your struggles with the 
websites if we had to upgrade our systems to be able to 
accommodate blind interns--blind veteran interns here on the 
hill if our systems had to have the kind of software that would 
make it possible for them to work here and to advocate on 
behalf of their brothers and sisters in arms?
    Mr. Kebbel. There is no question about it that it would 
help. There are some serious issues that have to be overcome 
first. There is that some of the Legacy software that the VA 
uses, no matter how much work you do on it will be accessible 
for Screen Reader.
    It would be valuable for someone to sit down and evaluate 
the process of using a website or even just documents to do 
that. As we look at it a little bit though, is right now I 
think the VA doesn't even have--I think they are self audited 
as far as if a web page is usable. Okay.
    The automation systems are fine. Okay. And that may give 
you an indication that it is ``accessible.'' But until you have 
someone who sits down and uses a Screen Reader with it I don't 
think you are going to have very good results.
    Mr. Takano. Thank you. Mr. Chairman.
    Mr. Coffman. Dr. Roe, Tennessee.
    Dr. Roe. Thank you, Chairman. I would like to introduce 
someone before I start. Timothy Dennis is 19 years of age is 
here with us today. This is Foster Youth Shadow Day on the--and 
Timothy, if you would stand up. He has spent six years in 
foster care in Tennessee and he is here, as many of his other 
friends are, with the hill today. So, let us give him a warm 
round----
    Phil Roe speaking. Travis, I remember your testimony very 
well and I remember you being here and it was powerful then, it 
is powerful now and thank you for coming back. And I am your 
neighbor just south of you in East Tennessee, so I am just 
down--where in Kentucky are you from?
    Mr. Fugate. I'm from a small town in Knott County, 
Kentucky. We border Virginia. The closest city to me that 
people recognize is Hazard, Kentucky.
    Dr. Roe. So, you are Hazard. Okay, I know exactly where you 
live then. First of all, I appreciate your testimony and one of 
the things that you brought up is extremely important. Five 
years ago--last year we had the VA and DoD come in and they 
just burned a billion dollars, a billion. We are worried about 
three million. We burned a billions dollars trying to make the 
DoD and the VA health care records speak to each other and they 
can't, they quit. So, three million dollars is nothing.
    And I have been to Great Lakes, Illinois twice to look at 
the system where they tried to get it to interact. It has not 
worked and I do not know, Travis, whether you are finding that 
information out, but it would certainly have been nice if they 
had that information out--whether it would have prevented what 
happened to you, no one--only God knows that, but it certainly 
would have been nice if a doctor would have had all the 
information available to be able to make those decisions and, 
by the way, just a commentary, when you go to California do not 
let them mess you up. You are just fine in eastern Kentucky, 
okay? Out there in California.
    And also, I think, Mr. Kebbel, what you said--tomorrow I go 
back. I am a veteran as you are, as all of you are and I am 
going back to Vietnam tomorrow, on a kodel, and what you just 
said when you made your testimony is the right thing to do is 
absolutely correct. Not because you have to do these things, 
because it is the right thing to do.
    And one of the things I do every year, we have--about 
January or February we have our sight impaired folks come to 
the hill and I go to my condo and I put a blindfold on for an 
hour and I try to walk around my condo, which is very small, 
and get around. Let me tell you, it is not easy.
    And we need to do everything we can for our veterans who 
have been--who are sight impaired and I agree with you, whether 
it's service connected or not. If there are veterans--and I 
completely agree with that--I have a question that may be 
better for the next panel but I'm going to have to miss it, is 
that Glaucoma and Diabatic Retinopathy and Macular Degeneration 
are potentially blinding diseases that are highly prevalent in 
the aging veteran populations, as you mentioned. What 
procedures or processes are in place as far as you know to 
insure that veterans with advanced sight threatening eye 
diseases have been seen by an Ophthalmologist?
    Mr. Fugate. I had trouble hearing you, sir.
    Dr. Roe. I said, what procedures or processes are in place 
to insure that veterans with advanced sight threatening eye 
diseases have been seen by an ophthalmologist? Do you know that 
in the VA hospital system?
    Mr. Fugate. I do know that once they are first diagnosed 
with the first stages, that they are put on like a screening 
program where they monitor it three months, six months, but 
then that's really all that they can do is monitor it, because 
Macular Degeneration, there is medication to slow the progress 
but there is no cure. Glaucoma, medications, no cure. So the 
only thing they can do is monitor it.
    Dr. Roe. Travis, just one other thing before I have to 
leave is that your comment here on your testimony, I am 
disappointed that after the passed three years while on DoD 
side they already have 23,450 eye injured records in the vision 
registry, but today VA has one veteran's record. The VA has not 
set this up because instead of having the clinical electronic 
data records contract--the contractors at DoD already doing the 
work. The VA, from we have been told now, is waiting for 
contract bids to be settled before getting started.
    It is now four years ago you were here. I recently had a 
chance to talk to my Congressman Harold Rogers to insure this 
is not delayed any longer. Thank you for that information right 
there. We will find out from the next panel. And the three of 
you, all of you, sincerely, thank you for your service to our 
country.
    Mr. Coffman. Thank you, Dr. Roe. And now Command Sergeant 
Walz.
    Mr Walz. Thank you very much, Mr. Chairman and thank you 
for holding this hearing. Great to have you all here again. 
Travis, I know my colleague gave a kind introduction and 
associated you and I together as friends, but I think Harry 
Truman was right. I know you've got a companion at your side a 
lot, if you need a friend in Washington, get a dog. You have 
got that one, so--but, I am honored, there's no one I'd rather 
stand with.
    And I say that because--and we are going to hear the panel, 
but it is not often you get the opportunity, we're going to 
discuss the intent of Congress, the spirit and the letter of 
the law. Today you got the folks in the room that wrote the 
law. We have got the person in the room that advocated for the 
funding and we work together. I am reminded and I had it here, 
I pulled it up. You would probably appreciate this, Travis. 
Here was a USA Today story that said, a military center devoted 
to finding new treatment for combat eye injuries has been 
delayed for a year by an ongoing squabble between Congress and 
the Pentagon over who will pay the five million needed to get 
it started, according to interviews. That was January 28th, 
2009 and so we hear this--Mr. Takano asked the question, how 
long this issue of electronic records is going on and seamless 
transition. I can just say from my perspective, my entire adult 
life, we have advocated for this, both when I was in the 
military and then after. It is an important point.
    I also think it is important to note though because it was 
mentioned here, a February 2013 New England Journal of Medicine 
story though, made this clear, in the private sector 12.2 
percent of physicians use electronic record meaningfully. Do 
not try and pretend that there is some type of magic bullet on 
the other side that it is working. That is nonsense, too. The 
issue on this is not trying to set up some pyridine here that 
the private sector is doing this and we are not, we are failing 
in getting this done here. Our purpose is to get this right and 
I would ask, Travis, on this, is your goal to have the Vision 
Center of Excellence up and running and doing what it is 
supposed to do and getting this care, or is your goal to go to 
the private sector to get your eye care?
    Mr. Fugate. My goal is to have the--I care deeply about the 
VA and all the care they provided, recreational care, therapy, 
mental health counseling. I recently came back to Kentucky to 
help my parents who are getting up there in the years address 
some of their medical issues and they were unable to manage 
their care in the private sector. It was too complicated. I 
could not imagine trying to go into the private sector, to be 
honest with you.
    And one of the selling points when I am telling young men 
and women about my military experience is that you can avoid 
the private sector when it comes to medical care. It is so 
freeing to know that I can just take the bus to the VA and be 
around people who know me and care about me and understand my 
issues.
    Mr Walz. This is an important point, because we need to 
really be careful because these service issues are absolutely 
fair issues. There is a role for that and there is a goal for 
that, but these core mission issues, especially on the issues 
of vision impairment and different things, you are not going to 
get off the hook by not fixing what is here. And I am angry too 
that this communication is not working. I said in this 
interview back in 2009 demanding that we get this right. But I 
think, collectively, together, when there is a role and a 
mission and a purpose and one that is working for people like 
Travis or our other veterans, we need to get that right.
    So, I agree with Dr. Roe's on this, this is not a funding 
issue on that. They have got to get this figured out. I 
represent the Mayo Clinic and they tell me, the Vista system in 
the VA is the best medical record in the world, okay. So, we 
have that.
    DoD has a different one. Now, keep in mind, I understand 
DoD's role is to fight wars, but until this Nation understands 
when we have our two biggest bureaucracies in government siloed 
up in DoD and VA not communicating with one another, you cannot 
separate Travis and these warriors and their injuries from the 
war that we fought. And now we have got the problem of a turf 
battle fighting over who is going to institute, who is going to 
put it in.
    Tom Gagliano, who is an absolute expert in this and 
everyone testified to that, in this article was talking about, 
yeah, I have an Eye Care Center of Excellence, but I do not 
have any computer and I cannot get going.
    So, we have got a responsibility here to avoid the easy 
flippant answers of what it's going to do. Dig down and hold 
the accountability, which we heard, get the accountability on 
this, get this thing up and running. Because as Travis came to 
me and told me, his goal is to get back and do the things you 
enjoy doing, get back into technology. Get that little place 
sometime and you did say Tennessee, I got to give Dr. Roe that, 
that at some point in time, going there.
    But we can do that. So I would appeal to my colleagues, let 
us let the data, let us let the oversight, let us drive this 
and get this going. We chose to do the Vision Center of 
Excellence, fully knowing that it was the best chance to do all 
the things that Mr. Minney, Mr. Kebbel, Mr. Fugate asked us to 
do. Now let us just make it work. I yield back.
    Mr. Coffman. Thank you. Dr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for being here. I am Dan 
Benishek from Michigan, I am a physician as well as Mr. Roe, 
and I worked within the VA system for about 20 years as a 
consultant, and I have a couple questions for you all.
    Mr. Fugate, let me ask you this question. It sounds from 
your testimony that you are not quite happy with the care you 
are getting from the VA right now; is that correct? I mean what 
could the VA be doing? It seems to me that you are checking in 
with them periodically and that is about all you are doing; is 
that correct?
    Mr. Fugate. It is tough for me because I am very satisfied 
and happy with the medical professionals and the community that 
I deal with and that I work with when I go to the VA. It is 
failures in the system that are causing the--you know, that 
bother me.
    Dr. Benishek. What could the VA be doing for you now that 
they are not doing? What would you like them to--is there 
something you would like them to do? I mean to me seems like 
you are not having that close a communication with the VA over 
this, you know, tragedy of your loss of sight. It seems to me 
that there should be some ongoing help to you to get your life 
in order as best as can be. Are you getting anything like that 
from the VA now?
    Mr. Fugate. Yes, absolutely. They are serving--I go to 
mental health meetings regularly, I have been involved, as I 
said before, with the recreational departments.
    Dr. Benishek. What could they be doing that you would like 
them to do that they are not doing?
    Mr. Fugate. Well currently everything they are doing fine 
by me, it is that they failed. And I could see a little bit, I 
had some vision, some very useful vision, and it was their 
failure in handling me when I transferred from the DoD to the 
VA that led to me losing that remaining vision. And what--my 
care is fine now.
    What I hope to do is prevent other soldiers, veterans from 
being hurt further by a failed transition between the DoD and 
the VA.
    Dr. Benishek. Right.
    Mr. Minney, do you have any comments on that question? I 
mean who could the VA be doing to, you know, besides avoiding 
the issues like Mr. Fugate talks about and the whole reason 
this testimony here is----
    Mr. Minney. The biggest challenge I see that can be fixed 
once again is communication across the board. The two agencies 
need to communicate better. It needs to be a more seamless 
transition so that no one gets lost in the system.
    When I was injured my injuries required me to get surgery 
from a German hospital, Landstuhl wouldn't touch me, so I had 
five eye surgeries from a German hospital. While Landstuhl had 
no idea--Landstuhl sent me there, but then when my unit was 
looking for me Landstuhl couldn't tell them where I was at. 
Once they discovered where I was at I had already left Homburg. 
After Landstuhl my unit and my family were looking at Homburg. 
Homburg finally got around to telling them I was at Landstuhl. 
By the time they made it to Landstuhl I was back at Bethesda 
Naval Hospital.
    The same thing went on as far as my purple heart. My purple 
heart was delivered to me by the UPS man because it went from 
Homburg to Landstuhl to Bethesda. Everything was a month behind 
because no one was communicating.
    It is the tracking. They need better tracking. That is 
where I would see improvements being made.
    Dr. Benishek. Mr. Kebbel, I was intrigued by your statement 
here about the lack of--or the difficulty for a blind person to 
get through the VA website, and I guess I am really not 
familiar with the technology that involves the blind to deal 
with a computer, and I guess there is a big lack in the ability 
of the VA to communicate with the blind veteran. Could you just 
elaborate on that a little bit more than your testimony before?
    Mr. Kebbel. Yeah, I will be glad to do that.
    Let me just go back in history a little bit and down scale 
the situation a little bit instead of being at a government 
level I will be at the city level in the City of Las Cruces.
    Okay, they were in the process of redesigning their website 
so I had an opportunity to sit there with their IT department 
and discuss what that means to us. And the next thing is once 
the IT department had the concept of what to do I sat down and 
performed training for the city employees to give them a basic 
understanding on why we need accessibility and why we need 
properly tagged elements. Okay. Once I was able to do that, 
okay, the city employees were 100 percent in.
    So I think right now what I see the problem is, is that we 
understand what needs to be done but nobody really understands 
why it should be done.
    Dr. Benishek. All right. Well, I know why it should be 
done, Mr. Kebbel, and I appreciate you being here to tell us.
    Thank you all for your testimony, I am out of time.
    Mr. Coffman. Thank you, Dr. Benishek.
    Mr. O'Rourke from the State of Texas.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    And I want to thank the witnesses for being here. And I 
wanted to begin my comments and then ask a question to Mr. 
Fugate.
    You know, in the beginning of your comments you talked 
about being here five years ago in 2009 and implied in that 
was, you know, what difference did your testimony then make, 
what progress have we made since then, what is the value of 
your appearance here today?
    And I want to just tell you from my perspective as a member 
of this committee you have focused my attention on this 
problem, I have learned many things today that I did not know 
before today's hearing. I am a new member of Congress, this is 
my first session in Congress, my first session as a member of 
this committee, and I am now resolved, as I know the rest of 
this committee is, in insuring that we correct the mistakes 
that were made in your individual case and the larger systemic 
problems that today's hearing has uncovered in these Vision 
Centers of Excellence and other problems for those who are 
sight impaired and are working with the VA.
    So I first want to begin my thanking you and telling you 
that what you are doing today is very powerful, very impactful, 
and it has set up I think some excellent questions that this 
committee will then ask the VA. You are helping us to hold the 
VA accountable, so I wanted to tell you that.
    And I also wanted to make you aware of a bill that we 
authored this session of Congress, H.R. 3045, which would 
require the DoD to provide every transitioning service member 
with a portable electronic record so that they have that, they 
own it, and they can bring it to their visit with a VA doctor, 
they can bring it to their visit with a private medical doctor, 
they can just have it and refer to it as they need it, and you 
have given us a poignant example of why that is so badly 
needed.
    I will say that we have cosponsors that include the 
chairman of this committee, the ranking member of this 
committee, Mr. Walz, Mr. Takano, members from both parties, we 
would welcome additional support, but as you continue to 
advocate on that issue, and Mr. Minney and Mr. Kebbel as well, 
we would certainly encourage you to make sure that members are 
aware that we have a bill that would provide part of the 
solution to some of these problems.
    You, Mr. Fugate, offered some good advice when asked what 
you would ask other veterans to do who might be in your 
situation. You know, you said that working within the VA you 
found to be helpful versus working within the private sector.
    And let me also just say I really appreciate your even-
handed description of VA services. You talked about providers 
both on the physical and mental health side who were there to 
help you, the great quality care that you got once you got in, 
despite the unfortunate decision that was made initially, so I 
really appreciate that.
    What else? Because besides influencing this committee and 
the VA I think there is a wider public that is listening to 
your remarks today.
    The veteran who is returning from Afghanistan today who has 
sight impairment, what is your advice to that veteran, what 
would you like them to keep in mind?
    Mr. Fugate. I would hope that they would understand that 
the VA is there for them, it is a veteran community. I have 
enjoyed sitting in the waiting rooms and meeting veterans from 
the pastors and their wives and their families and having 
coffee with them from down the hall while they are waiting.
    It is a community and the system is slow and you have to 
reach really deep to find the patience sometimes to allow the 
system to turn. The system is not turning fast enough. The 
people in the VA aren't out to get you, they are not against 
you, the system just is turning too slowly. People care deeply 
about their returning veterans.
    Mr. O'Rourke. Thank you for saying that. And again, thank 
you for finding the good within the system that we can build 
upon while also recognizing the frustrations that you and 
others have with parts of that system that do not work.
    Mr. Kebbel, I am about out of time and I may ask you some 
questions following the hearing, but I did want to follow up on 
a point that you are making about inaccessibility on the VA's 
website, and really make sure that this committee is also doing 
everything it can. Mr. Walz leaned over earlier during your 
testimony and asked is this committee's website fully compliant 
and accessible to you and others who are sight impaired? And I 
think the answer we received from staff initially is that it is 
not.
    So I think we need to do our part to make sure that we are 
not just blaming the VA and not just holding them accountable, 
which we should do, but also holding ourselves accountable.
    You mentioned the Library of Congress as an example of a 
federal agency that is doing it right. I am going to have to 
give my time back to the chairman, but I would like to follow 
up with you after the hearing to find other agencies and 
federal departments who are doing the job the right way and see 
what we can learn from them.
    So I wanted to thank you and Mr. Minney also for being 
here. And with that, Mr. Chair, I will yield back.
    Mr. Coffman. Thank you.
    Ms. Kuster, State of New Hampshire.
    Ms. Kuster. Thank you, Mr. Chair, and thank you to your 
witnesses here today both for your courage and articulating the 
problem, but also I want to join my colleague, Mr. O'Rourke, in 
his comments because I want you to understand we are--I am also 
a new member of Congress, a new member of this committee, and 
Mr. Fugate, when you said people cared deeply within the VA but 
the system is slow this has been our experience within the 
United States Congress. People care deeply but the system is 
very slow.
    And I want to revisit a letter that I led with my 
colleagues, a bipartisan letter that we wrote last summer, July 
22, 2013, to Secretary of Defense, Chuck Hagel, and Secretary 
of Veterans Affairs, Eric Shinseki, where we raised our 
concerns about the Vision Centers of Excellence and asked for 
information to get a sense. Sometimes around here it is 
difficult to even get the information about where things stand, 
because obviously we have colleagues on both sides of the aisle 
that came before us that cared deeply about creating this 
Vision Center of Excellence.
    And one of the parts of the response that I find troubling, 
this is dated January 4, 2014 from Secretary Shinseki, is that 
there seem to be a number of positions that are open. The VA 
contributed 6.6 full-time equivalent employees for the vision 
center. Now that doesn't sound like very many to me given the 
scope of this project. 2.6 are currently filled, 4 are in the 
hiring process, and then this is also the case with the Hearing 
Center of Excellence, 4 FTEEs of which one position was filled 
and 3 were in the hiring process. And I don't know if anyone of 
this panel can help us with this, but I do want to convey to 
you, as Mr. O'Rourke has, that you have focused our attention 
on this issue and that we intend to press this case forward, 
because the very purpose of setting up the Vision Center of 
Excellence is to address these concerns. We have so many new 
veterans are Iraq and Afghanistan with sight impairment from 
the war and then aging veterans with sight issues.
    So could you comment on, if you know, any member of the 
panel, what is the current progress and do you think there are 
sufficient resources, including people power, to address these 
concerns about registering the people into the system and the 
computer issue that you have raised? Mr. Minney.
    Mr. Minney. Well, I know the last word that we got was on 
the VA side there is a blind rehab specialist position that 
is--they are interviewing for, and then the VA side will have 
all their FTEs filled, but now they are looking--they are 
putting bids out for contractors.
    My question is, the inception was in 2009. There was $6.9 
million that was budgeted for the VA side for 2.6 employees 
between 2010 and 2014. I would like to have that salary. 6.9 
million split between 2.6 employees over 4 years? So my 
question is I don't know where that funding went.
    Ms. Kuster. Right.
    Mr. Minney. So that is what I would like to know.
    Ms. Kuster. And I also think the comment was well taken 
about the funds that are returned to the treasury.
    It is a fine thing in this world to be frugal, we don't see 
a lot of that around here, but the point is how can funds be 
returned to the treasury if there are issues like this that 
remain up resolved and not addressed.
    So I am going close my time and I just want to thank you 
for coming, and I also want to join Dr. Roe in addressing, I 
have a constituent here, Dakota Umbro from Berlin High School 
who is joining us in the back of the room and fostered--not 
child, young person here to learn more about our congress.
    And Mr. Fugate, I think you have a bright future and I can 
just hope and pray that you might choose to address it to 
resolving the computer issues at the VA.
    So thank you for joining us.
    Mr. Coffman. Thank you, Ms. Kuster.
    Before the panel leaves I would like to have Mr. Hannel 
discuss an issue that Mr. O'Rourke raised relative to the 
compliance of this committee's website.
    Mr. Hannel. Thank you, chairman.
    To your question, sir, the committee's web site does use a 
reader and it is called BrowseAloud, which is an element of a 
five-way compliance. So have you folks at the panel been able 
to access that?
    Mr. Fugate. Could you say the name again, please.
    Mr. Hannel. BrowseAloud.
    Mr. Fugate. I never heard that term in my life.
    Mr. Kebbel. I have not used it.
    Mr. Hannel. Okay. Then we will get with you after this and 
you can walk us through to make sure that it does address your 
needs.
    Mr. Fugate. Can I make a comment on that?
    Mr. Coffman. Yes, sir.
    Mr. Hannel. Yes, please.
    Mr. Fugate. There is standard screen reading software that 
blind folks use, and when you introduce a screen reader that a 
blind person isn't accustomed to using it is hard to expect 
that they will be able to interact with your--the information 
the way that they are accustomed to interacting with 
information on other web pages. So in my opinion a custom 
screen reading solution for a web page is inadequate.
    Mr. Kebbel. Can I address that too?
    Mr. Coffman. Yes.
    Mr. Kebbel. Yeah, this is Terry Kebbel.
    The problem with an automated system is it is designed by 
someone who looks at a script and says this is what it is 
supposed to do. Okay. So I would say most of the time it is 
probably accurate, okay? But there is a lot of times where it 
will look at a tag and there will be a description of the tag 
of the label and the label will say button, well it passes the 
test, but the button--I don't know what the button does. Okay? 
Is it a button for searching something, is it the blue button 
that we are talking about, is it a button that sends me 
nowhere? Okay? So yes, it all passed test, but is it 
effectively labeled, is it effectively described?
    You can probably go to the form fields web site on the VA 
web site and look at the link, because I bet you every one of 
those links will pass inspection, but every one of those links 
are numerically described. There is no description of what that 
form is.
    So yes, yeah, you can use that, but as I spoke later, that 
you really need someone to sit down and evaluate it who uses a 
screen reader. Either Jaws or voice over or whatever screen 
reader you are using. If it is designed correctly any other 
screen readers will be able to address that.
    Mr. Coffman. Let me have Mr. Takano and then we need to 
move to the second panel. Mr. Takano.
    Mr. Takano. Very briefly, Mr. Chairman.
    I appreciate that you and your staff are going to work with 
Mr. Kebbel after the hearing, but could we not share this 
information with the House Administration Committee and our 
counterparts in the Senate? I think it is important that the 
entire institution of the Congress, every members' web site 
should be able to accommodate blind veterans and the blind 
community in general.
    Mr. Coffman. We will certainly do that, and this is the 
same system I think that is on the House VA committee that the 
Library of Congress uses, as I understand it, but I think there 
is always room for improvement and we will certainly look at 
that.
    I want to thank you all so much for coming and testifying 
here today. Really appreciate your service to our country.
    Mr. Kebbel.
    Mr. Kebbel. Yeah. As a Vietnam veteran what I hear concerns 
me, okay, because we are talking about all the young veterans 
coming back. Okay? What concerns me about us Vietnam veterans 
is Agent Orange, okay? I had a catastrophic heart failure that 
led to a heart transplant, okay? I feel that is because of 
Agent Orange. That led to my blindness. There are a lot of us 
Vietnam veterans out there who are dying without any health 
care right now. Okay? And I have a concern about that and I 
don't think we addressed that.
    Thank you.
    Mr. Coffman. Thank you very much, I appreciate it. 
Appreciate your service to our country, all three of you. Thank 
you very much.
    And now we will move to the next panel, the second panel. I 
now invite the second panel to the witness table.
    On our second panel we will hear from Dr. Maureen McCarthy, 
Deputy Chief of Patient Care Services for the Veterans Health 
Administration, and Ms. Lorraine Landfried, Deputy Chief 
Information Officer for Product Development for VA's Office of 
Information Technology. They are accompanied by Dr. Mary 
Lawrence, Deputy Director of the Vision Center of Excellence, 
and Mr. Pat Sheehan, Director of VA's 508 Compliance Office.
    I think we will continue the--for committee members we will 
continue the process of stating your name so those that are 
vision impaired in the audience can know who is speaking, and I 
would ask the panel to do the same.
    Dr. McCarthy, your complete written statement will be made 
part of the hearing record and you are now recognized for five 
minutes.

 STATEMENTS OF DR. MAUREEN McCARTHY, MD, DEPUTY CHIEF PATIENT 
 CARE SERVICES, VETERANS HEALTH ADMINISTRATION, DEPARTMENT OF 
    VETERANS AFFAIRS; MS. LORRAINE LANDFRIED, DEPUTY CHIEF 
    INFORMATION OFFICER FOR PRODUCT DEVELOPMENT, OFFICE OF 
    INFORMATION TECHNOLOGY, DEPARTMENT OF VETERANS AFFAIRS; 
 ACCOMPANIED BY DR. MARY LAWRENCE, MD, DEPUTY DIRECTOR, VISION 
   CENTER OF EXCELLENCE, AND MR. PAT SHEEHAN, DIRECTOR, 508 
       COMPLIANCE OFFICE, DEPARTMENT OF VETERANS AFFAIRS

               STATEMENT OF DR. MAUREEN McCARTHY

    Dr. McCarthy. Thank you.
    Good morning Chairman Coffman, Ranking Member Kirkpatrick, 
and members of the committee. I appreciate the opportunity to 
discuss the Department of Veterans Affairs contributions to the 
Vision Center of Excellence and the care and services provided 
to veterans with visual impairments.
    I am accompanied today by Dr. Mary Lawrence, Deputy 
Director of the Vision Center of Excellence.
    The Vision Center of Excellence, or VCE, was established by 
the National Defense Authorization Act in January of 2008. In 
October of 2009 a DoD and VA memorandum of understanding 
defined the roles and responsibilities of the departments and 
the establishment and operation of the VCE.
    VCE's efforts are directed at improved vision health, 
optimized readiness, and enhanced quality of life.
    The National Defense Authorization Act also required the 
implementation of the defense and veterans eye injury and 
vision registry. The vision registry collects longitudinal data 
on eye injuries, guides research and clinical education, 
promotes best practices, and informs policy for the treatment 
of eye and vision-related injuries for service members and 
veterans. I am pleased to share that the vision registry is on 
schedule and on budget.
    VCE has achieved many significant accomplishments since its 
inception. VCE has identified and addressed 33 process 
improvement opportunities through the monthly VCE hosted World-
wide Ocular Trauma Video Teleconferences which connect 
providers across the continuum from combat support hospitals 
and coalition providers to VA Poly-Trauma Centers. It has also 
led the way to initial inclusion of Fox protective eye shields 
in joint first aid kits and is attempting to expand them into 
individual first aid kits.
    In addition VCE, in collaboration with VA Blind Rehab 
Services, has designed an educational pamphlet geared toward 
in-patient care teams in hospitalized settings to assist with 
transitions.
    Mr. Chairman, the consequences of vision injuries to our 
service members and veterans will be with us for decades to 
come, therefore VA will continue to partner with DoD to provide 
eye care providers, clinical care practitioners, and 
researchers to have access to the information needed to develop 
strategies that will enhance and improve patient care outcomes.
    Mr. Chairman, this concludes my testimony, I am prepared to 
answer any questions you may have.
    Mr. Coffman. Next I would like to introduce Lorraine 
Landfried, Deputy Chief Information Officer for Product 
development, Office of Information and Technology, to address 
issues related to 508 compliance.

    [The prepared statement of Dr. Maureen McCarthy appears in 
the Appendix]

                STATEMENT OF LORRAINE LANDFRIED

    Ms. Landfried. Thank you, Dr. McCarthy, and good morning 
Chairman Coffman, Ranking Member Kirkpatrick, and members of 
the committee.
    We appreciate the opportunity to discuss veterans affairs 
work to improve access to information technology resources for 
visually impaired veterans, stakeholders, and employees. 
Accompanying me today is Mr. Pat Sheehan, Director of our 508 
program office.
    Since 2001 this office has provided validation testing on 
VA web sites and applications using a combination of automated 
tools and manual auditing, the latter of which is performed by 
users who have a disability, including those with a visual 
impairment.
    When VA identifies non-conformant applications or web sites 
Section 508 staff work with relevant parties to correct or 
remedy accessibility issues.
    As critical as it is for us to audit and improve our 
existing web sites it is just as important to insure that all 
future applications and web sites are in conformance with 508 
standards as well.
    To do this we have implemented formal policies requiring 
all information technology developed by VA to complete a four-
step milestone process. This helps us insure that accessibility 
is planned for and built in up front rather than trying to 
inspect it in the future.
    We also provide training to VA's system content creators 
providing them with the tools and the know how to make VA 
information 508 conformant.
    We have made tremendous progress over the past year. For 
example, we improved the conformance of the my healthy vet web 
site from 16 percent in November to 95 percent today, and we 
will continue to pursue an aggressive strategy to insure access 
to all covered systems and electronic information.
    We are also committed to working with our veteran 
stakeholder groups. VA will attend the Blinded Veterans 
Association's upcoming national conference to review recent 
updates to frequently used applications and web sites with BVA 
stakeholders and work with them to identify ways that usability 
can be improved, even in areas where we are technically already 
Section 508 conformant.
    Mr. Chairman, this concludes my prepared remarks, and Mr. 
Sheehan and I look forward to answering any questions you may 
have. Thank you.

    [The prepared statement of Lorraine Landfried appears in 
the Appendix]

    Mr. Coffman. Thank you. Are there further remarks?
    Okay. Dr. McCarthy, again this is Mike Coffman. According 
to your testimony there were 23,664 unique patients enrolled in 
the vision registry. How many of those patients were enrolled 
by the Department of Defense and how many from the Veterans 
Administration?
    Dr. McCarthy. Mr. Coffman, that is an important question. 
The actual entry of the data was primarily done by the 
Department of Defense. You heard mention that there was one 
person entered by VA and that was to test the systems.
    I want to explain the registry just for a minute if I 
could. The registry is seated at the Department of Defense and 
so it is set up to take information more directly from the 
Department of Defense for servicemembers who do receive eye 
injuries.
    Okay. VA set up the architecture for the registry and over 
50 percent of it was used by the Department of Defense in order 
to enter service members' data into it.
    VA has to go through a two-step process to enter the data 
into the registry. It is typical with cancer registries and all 
kinds of registries of that sort that information is harvested 
from a particular medical record, placed in a repository, and 
then entered into the registry.
    VA's contract you may have heard is currently out for bid 
that we--the bids close June 9th, for the completion of the 
data entry into the registry--well first into the repository to 
go into the registry. So the two-step process for VA is under 
way.
    We did look at how many veterans--let me rephrase that--how 
many people who are--have treated in the VA because some active 
duty servicemembers have been through our blind rehab program. 
How many people have actually been treated at the VA that 
already have data in the registry, and currently there are at 
least 2,400 veterans who have data in the registry, but you are 
accurate that that data was entered by----
    Mr. Coffman. If we could just go back to the question, and 
that is that I get the Department of Defense, because they are 
going to have the service connection ones as folks are out 
processing in active duty so they are going to enter that in, 
but this registry is also for non-service connected veteran eye 
issues is it not?
    Dr. McCarthy. It is about eye injuries.
    Mr. Coffman. So whether it is service connected or not 
service connected it is about veteran eye injuries. And so, but 
the fact remains you haven't entered into a single person, so 
what it tells me is you are not participating.
    Dr. McCarthy. I understand why you say that, and it is 
regrettable that none have been entered, but the framework is 
in place, the target date for the registry to be functional is 
by the end of fiscal year 2015, and so the fact that the 
contract is out for bid at this point is progress and we are 
looking forward to data being entered by the end of the fiscal 
year.
    Mr. Coffman. Well we had a lot of those definitions in 
progress last night before the full committee and it is 
disconcerting.
    Ms. Landfried, in VA's February 2014 response to a letter I 
wrote in October 2013 I was told that VA had not awarded a data 
abstraction contract due to contracting delays. What were those 
delays and have the problems that caused them been corrected?
    Ms. Landfried. That is actually probably better answered by 
Dr. McCarthy.
    Dr. McCarthy. And, Mr. Coffman, I am not aware of the exact 
delays. I would be happy to take that for the record and get 
back to you. Before the hearing I did ask if we could find a 
timeline for the process of the contract awards and what the 
delays were. I don't have that at this point but we will get 
back with you.
    Mr. Coffman. Okay. Mike Coffman again.
    Ms. Landfried, according to a July 26th, 2012 memo from the 
assistant secretary for information and technology all VA IT 
software was required to be compliant with Section 508 by 
January 2013. Is all VA software compliant at this point in 
time?
    Ms. Landfried. At this point in time it is not. We have not 
achieved 100 percent conformance with the 508 standard. We have 
made significant progress since that time.
    Mr. Coffman. What percentage are you at right now? This is 
Mike Coffman again, and I want to remind people to identify 
themselves for this hearing before they speak. What percentage 
are you at right now?
    Ms. Landfried. Mr. Sheehan, would you like to take that?
    Mr. Sheehan. Yes. This is Pat Sheehan. Thank you.
    The percentage is difficult for me to address right now, 
because the software that we are looking at particularly on the 
web and particularly the software that we look at as far as 
applications are concerned are pretty much in development.
    I think the important point that I want to make here is 
that the process that what we are doing with the software is 
working through the processes that we have established so that 
we can build software in at the beginning of the software life 
cycle and through the test process.
    Mr. Coffman. So I think the simple answer would be you are 
not compliant at this point in time. Thank you very much.
    Ms. Kirkpatrick.
    Ms. Kirkpatrick. This is Ann Kirkpatrick.
    And, Dr. McCarthy, I would like to go back to your 
description about the VCE. So it is housed at the DoD, but does 
the VA have access to the records that are at DoD?
    Dr. McCarthy. Yes, there would be the opportunity for a VA 
provider to access that record. That would be the opportunity.
    Ms. Kirkpatrick. And does that happen?
    Dr. McCarthy. At this point I am going to defer to Dr. 
Lawrence on that question.
    Ms. Kirkpatrick. Okay.
    Dr. Lawrence. Yes, Ranking Member Kirkpatrick, the registry 
is designed so that eventually individual providers from DoD or 
VA will be able to access the information in the registry on 
their individual patients and de-identify data on other 
patients. So they could, for example, put in some criteria that 
may be characteristic of a patient they are seeing and look at 
de-identified data and look at the outcomes of that de-
identified data to help inform the provider and the patient as 
a----
    Ms. Kirkpatrick. I appreciate that. My concern is suppose 
that a military member transitions out today, goes to a doctor 
tomorrow, technically in the VA system, will that doctor be 
able to see that person's records regarding the eye injury that 
was service connected?
    Dr. McCarthy. This is Dr. McCarthy speaking.
    There are multiple opportunities for VA doctors to be able 
to access records from the Department of Defense. In our CPRS 
record system screen there is an opportunity to use a web-based 
interface in order to have access to those records.
    Ms. Kirkpatrick. So I am still not clear what your answer 
is. Would that doctor be able to see that patient's military 
medical records the day after they transition out?
    Dr. McCarthy. It is my understanding that if those records 
are electronic those records can be accessed, and most of the 
records are electronic at this point.
    Ms. Kirkpatrick. Do you know what percentage?
    Dr. McCarthy. I do not have that number but we could check 
with DoD and get back with you.
    Ms. Kirkpatrick. Okay. So then the VA's portion of this is 
just eye injuries, not necessarily military connected, and that 
is where your contracting out to have somebody enter that 
information?
    Dr. McCarthy. What we are contracting for is for someone to 
go through our CPRS records and pull out information such as 
eye exams, data from those exams, visual acuity, treatment 
interventions that were made so that over time progress can be 
tracked by the individual but looked at collaboratively. That 
is the point of the registry.
    Ms. Kirkpatrick. I have a question about the funding, Dr. 
McCarthy. Again, this is Ann Kirkpatrick.
    Your testimony notes a total of 6.9 million that the VA has 
budgeted for the center from fiscal year 2010 to fiscal year 
2014. Has the funding been consistent each year, and can you 
provide a year by year breakdown of the funding over the past 
five years?
    Dr. McCarthy. Thank you, Ranking Member Kirkpatrick. This 
is Dr. McCarthy speaking.
    The $6.9 million was allocated in an accumulative amount 
for that period of initially from fiscal year 2009 to 2013, 
extended to 2014. So really over a five to six-year period. 
What happened was an initial kind of ramping up of salary 
dollars, but in addition a kind of fencing of the money for 
contracting to enter the data that we are talking about from 
that VA medical record into the repository. So that money has 
kind of been kept separate, but the money that has been used 
over time, and I will be happy to provide those dollars for you 
for the record if you like, that is a gradual increase over 
time as salaries have increased and functions have increased.
    Ms. Kirkpatrick. Thank you, Dr. McCarthy. I would like to 
see the breakdown, the year by year breakdown since the funding 
started.
    Dr. McCarthy. Yes.
    Ms. Kirkpatrick. And then how much is set aside for the 
contractor.
    And thank you, ranking member, I yield back.
    Mr. Coffman. Thank you, Ranking Member Kirkpatrick.
    Dr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman.
    I can't believe it takes five years to get this thing 
going. What is the story with that? I mean apparently it is not 
even all staffed up yet, this Center of Excellence. Why has it 
taken five years? I mean the entire Second World War was four 
years for us.
    Dr. McCarthy. Sir, this is Dr. McCarthy speaking. I would 
like to respond.
    There have been processes involved in getting this set up. 
The joint executive committee, VA, DoD set----
    Dr. Benishek. Five years?
    Dr. McCarthy. They set a target for the registry to be 
functional.
    Dr. Benishek. I know, but five years seems like a really 
long time.
    Dr. McCarthy. I appreciate that.
    Dr. Benishek. Well let me get to something a little bit 
more pertinent.
    Dr. McCarthy, it has come to my attention that there is 
many issues with our veterans with their eye diseases, 
glaucoma, and Dr. Roe brought it up earlier, this diabetic 
retinopathy, macular degeneration, blinding eye conditions that 
if left untreated will lead to blindness and we are very 
prevalent in our ageing veterans population. So what procedures 
are in place to insure that veterans with these eye diseases 
are seen by an ophthalmologist?
    Dr. McCarthy. Sir, this is Dr. McCarthy speaking again.
    What I would be happy to tell you about is some of the 
processes we have in place. For instance a patient who has 
diabetes is at risk for diabetic retinopathy. They are 
screening processes in place in which we use telemedicine and 
photographs of the retina of every patient with diabetes are 
taken and read by an optometrist or an ophthalmologist, and if 
needed then that patient is referred to an ophthalmologist for 
care, but it is part of the routine screening for diabetics.
    In addition patients with glaucoma are followed regularly 
in our eye clinics.
    And you mentioned one other disease, I am sorry.
    Dr. Benishek. Macular degeneration.
    Dr. McCarthy. And macular degeneration is a tragedy. We do 
have ophthalmologists carefully following people with macular 
degeneration. I can't speak to the exact screening procedures 
that are developed for those patients, but I----
    Dr. Benishek. Well, I have a concern because, you know, I 
worked at a VA hospital, and you know, it is tough to staff 
many of these clinics with ophthalmologists, I mean they have a 
hard time keeping people.
    Are you aware of any of the procedures for hiring local 
ophthalmologists for staffing VA centers on a part-time basis? 
Are you familiar with any of that?
    Dr. McCarthy. Well, I am a former chief of staff from a VA 
facility in Salem, Virginia, and it was our experience there 
that we did try to hire full-time ophthalmologists or we would 
ask for people to come in on a contract basis. Because we were 
an academic facility we had a strong partnership with the 
University of Virginia and we were able to recruit people 
effectively there. But I am aware that other institutions do 
have contracts for folks to be hired.
    Dr. Benishek. Well, I am somewhat concerned because, you 
know, some of my friends are ophthalmologists that work at the 
VA----
    Dr. McCarthy. Yes.
    Dr. Benishek [continuing]. And they are concerned of the 
fact that the VA limits their ability to work at the VA because 
once they reach a certain dollar amount then they can't work 
anymore for the year, and so--because they think well maybe it 
is more cost effective to be a full-time ophthalmologist within 
the VA, but of course they don't have any full-time 
ophthalmologist so the patient then travels 250 miles to 
Milwaukee to get to see the ophthalmologist.
    So they say well you can't pay them more because it would 
be more efficient to hire a full-time ophthalmologists but yet 
they don't hire a full-time ophthalmologist so the patient just 
goes without. Whereas if they just would allow him to work 
there a little longer he could continue to provide the care and 
not have the patient go to Milwaukee. And I don't understand 
the reasoning for that rule. If you say that it is more 
efficient to hire a full-time ophthalmologist then hire a part-
time ophthalmologist. So it seems like it is sort of a catch-22 
problem.
    Dr. McCarthy. But it doesn't--I can respond.
    Dr. Benishek. Let me ask another question.
    Apparently I have also heard that in order to improve the 
access to eye care that they are having like eye technicians do 
some of the work rather than physicians, some of the screening 
work. I mean you mentioned, you know, the screening the retinal 
pictures. You know, it concerns me when, you know, people other 
than physicians are providing care. I mean how do we know those 
people are trained properly? Do you know what the status of 
that situation is?
    Dr. McCarthy. Yes, sir. This is Dr. McCarthy speaking 
again.
    I can talk about the training for teleretinal imagers or I 
could talk about a typical eye doctor appointment in which 
there are other non-physician people that are involved, you 
know, that might check visual acuity or might be involved in 
checking----
    Dr. Benishek. I know, but I am talking about like things 
that physicians typically do. I mean I am always concerned 
about the quality of care when physicians aren't doing the 
things that they are supposed to do.
    I am sorry, I guess I am out of time, but maybe we with 
further that later.
    Dr. McCarthy. Discuss later. Thank you, sir.
    Mr. Coffman. Mr. Takano, State of California.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. McCarthy, just help me, where is this central--where is 
your center located physically?
    Dr. McCarthy. The Vision Center of Excellence?
    Mr. Takano. The Vision Centers for Excellence.
    Dr. McCarthy. I am going to defer to Dr. Lawrence.
    Dr. Lawrence. Yes, Dr. Mary Lawrence.
    The Vision Center of Excellence has two locations in the 
national capital region. One, our headquarters is at Walter 
Reed National Military Medical Center in Bethesda, and we also 
have an office in Crystal City, Arlington, Virginia, and we 
also have a small office at Madigan Army Medical Center in 
Tacoma, Washington.
    Mr. Takano. Okay. And Walter Reed is under the agents of 
the DoD, right, but nevertheless this veteran Center for Vision 
of Excellence is located at--one of them is located at Walter 
Reed; is that right?
    Dr. McCarthy. Yes, sir. This is Dr. McCarthy again.
    The Vision Center of Excellence is a joint effort between 
DoD and----
    Mr. Takano. Okay.
    Ms. McQueen [continuing]. And VA, and of the Centers of 
Excellence DoD authorized navy to be involved with this, and so 
it is a partnership between the navy on behalf of DoD with VA.
    Mr. Takano. That clears up something. I have actually been 
to Walter Reed and actually saw the center and so I said is 
that the same center? But nevertheless we are still having 
problems with the registry being populated.
    Now help me understand this registry. The registry has not 
been populated, we are waiting for the contracts to be filled 
and you are saying by the end of fiscal 2015 is when we expect 
this registry work to be done or begin?
    Dr. McCarthy. No, sir. Dr. McCarthy again.
    The registry contract is out for bid at this point, it is 
on the streets and we will have the bids in mid June and we 
expect it to be awarded and the data entry to start by the end 
of fiscal year.
    Mr. Takano. Okay. All right. And you are saying--and I want 
to clear up a question that--the answer to Ms. Kirkpatrick's 
question about a provider being able to access a 
servicemember's records once they leave service and go to the 
VA.
    So even without the registry being populated you are saying 
that the entire record is still theoretically accessible if it 
is electronic, if it exists in electronic form at DoD the 
medical provider on the VA side still can access it--should be 
able to access it overnight or you know the next day?
    Dr. McCarthy. It is actually realtime, it is not exactly 
instantaneous. I have to say it does take some time.
    Mr. Takano. Okay.
    Dr. McCarthy. But I would like to yield to Lorraine to see 
if she could say more about that.
    Ms. Landfried. On how interoperability works?
    Dr. McCarthy. Yes.
    Mr. Takano. Yeah, I just wanted--I think she asked the 
question--Ms. Kirkpatrick asked the question, a servicemember 
leaves defense, next day sees a VA doctor, can that VA doctor 
access the record?
    Ms. Landfried. As long as it is an electronic record then 
yes, and as was stated earlier most of the records in DoD are 
now in electronic form in their health record system.
    I guess the daylight there or the gap there is between 
interoperability and seamless interoperability. So if it is DoD 
data then essentially you have to, you know, push a button to 
say go fetch it and bring it to me. It is not stored locally as 
part of the VA system, and that is what a lot of the work 
recently has been about is to go from interoperability to 
seamless interoperability. So as you are conducting a clinical 
work flow that the information that you need is there hand in 
hand with the step that you are doing.
    Mr. Takano. I have a couple more questions, I will try to 
ask them really quickly. It has to do with accounting for 
diversity.
    I know that in certain ethnic groups, Asians in particular, 
that glaucoma can show up much earlier in a patient. Do you 
have procedures in place to be able to accommodate the 
different health needs among servicemembers according to 
ethnicity?
    Dr. McCarthy. You know, VA has set up an office of 
healthcare equity and diversity and I would want to yield to 
them, so if it is possible I would like to take that one for 
the record and get back to you.
    Mr. Takano. Thank you, I appreciate that.
    And related to Mr. Kebbel's--he raised the point about 
Agent Orange and its connection to his blindness. Is there 
anything being done to sort of deal with this huge Agent Orange 
population that we are going to have to address from the point 
of view of any kind of preventative work we can do?
    Dr. McCarthy. This is one, sir, I would have to take for 
the record. I don't have an answer for that.
    Mr. Takano. Okay.
    Dr. McCarthy. I mean I could talk about Agent Orange in 
general but not specifically related to blindness.
    Mr. Takano. Yeah, I would like to sort of address that 
issue if you--and we can deal with that later in written form.
    Dr. McCarthy. Thank you. Okay.
    Mr. Coffman. Mr. O'Rourke, State of Texas.
    Mr. O'Rourke. Thank you, Mr. Chairman. This is Beto 
O'Rourke, El Paso, Texas.
    So for Dr. McCarthy, some of these questions you may have 
already answered and they may be repetitive, but I am new to 
this and I want to make sure that I fully understand it. You 
mentioned that January '08 was the start date for this 
initiative for the eye injury and vision registry.
    Dr. McCarthy. I mentioned--I am sorry, this is Dr. 
McCarthy. I mentioned that the act that established it was 
January 2008.
    Mr. O'Rourke. That is when it became law?
    Dr. McCarthy. Yes, sir.
    Mr. O'Rourke. Okay. And then the funding was appropriated 
the next year?
    Dr. McCarthy. I don't have the date of the funding, I can 
tell you the date that the MOU was signed----
    Mr. O'Rourke. Okay.
    Dr. McCarthy [continuing]. Between DoD and VA, and that was 
October 2009.
    Mr. O'Rourke. And the back up I received shows that at 
least $5 million of that funding has been spent, and I hope I 
am speaking about the same pot of money, there was a total of 
$6.9 million appropriated, $5 million has been spent. What has 
that $5 million been spent on?
    Dr. McCarthy. Okay, let me just back up.
    Mr. O'Rourke. And in the plainest terms possible just 
because we are limited on time.
    Dr. McCarthy. Okay, I am sorry, and again this is Dr. 
McCarthy.
    We have $2.8 of that $6.9 million set aside for the 
contract, so that brings us to $4.1. The $4.1 million has been 
used for salaries for individuals as we have ramped up the 
employment over the past five years, and in addition to 
education and training events, and I would yield to Dr. 
Lawrence for more details about that if you like.
    Mr. O'Rourke. Not just yet.
    Dr. McCarthy. Yes.
    Mr. O'Rourke. Thank you though.
    You in responding to an earlier question about how long it 
has taken you said it is regrettable but that you also 
mentioned that we are on schedule and on budget. So when this 
became law in January of '08 and when the funding was 
appropriated in the year thereafter was it always understood 
that June 9 of 2014 was when we would go out to bid or make a 
decision on closing those bids?
    Dr. McCarthy. This is Dr. McCarthy again.
    Actually it was always understood that by the end of fiscal 
year 2015 the registry would be operational.
    Mr. O'Rourke. Okay. Thank you. And it does just from a 
layman's perspective seem like a very long time. Dr. Benishek 
compared it to the amount of time that we spent in World War II 
and the number of people who are affected by these issues who 
do not have access to this care.
    And I would like to take one that we had as an example 
today from Mr. Fugate. Based on his testimony from '09, to the 
extent you are familiar with it and his testimony today, do you 
have anything to offer in response to concerns that he raised 
or the specific case study that he has offered and how we are 
or have not yet learned from it and are or not yet able to 
provide the kind of care that might have provided for a better 
outcome in Mr. Fugate's case?
    Dr. McCarthy. This is Dr. McCarthy again. And I am happy to 
be in touch with Mr. Fugate after the hearing and I would be 
interested in offering support in that way.
    I do want to mention the 33 process improvement activities 
that were identified as part of the Vision Center of Excellence 
calls in which the people in the field and the people at Vision 
Center of Excellence and the people at the polytrauma centers 
have worked together to try and solve those kind of 
communication issues.
    Mr. O'Rourke. Okay, and that might be good for myself and 
the entire committee to understand from your perspective Mr. 
Fugate's specific case and how that case in 2014 might be 
handled differently and how the interoperability between DoD 
records and medical recommendations and decisions and those in 
the VA might provide for a better outcome or might not where we 
still have some ground to make up. And so I think it is very 
important for us if nothing else to learn from his specific 
case and ensure that it is not repeated, and I think you could 
probably agree with me on that.
    Dr. McCarthy. Yes.
    Mr. O'Rourke. And then for Ms. Landfried and the Section 
508 issues. I think this discussion today is happening within 
the larger context of the American publics' and Congress' 
frustration with lack of accountability within the VA. And so 
again, just looking at the backup and all of the chances that 
the VA had to come into compliance, the waivers that were 
issued to allow the VA to remain out of compliance, the fact 
that on some of the most critical issues like the ability to 
fill out a VA form that Mr. Kebbel brought to our attention, it 
seems like not only would that be a benefit to the sight-
impaired veteran, it would be a benefit to the VA to be able to 
have that information entered there by the veteran himself or 
herself instead of have been to go to a VBA office.
    How do you answer in the plainest terms possible what I 
feel is very justified frustration at the amount of time that 
the VA has had to get it right? And you and Mr. Sheehan spoke 
earlier of the processes involved, all the things you have got 
to do, which are really lost on me. I think we just really want 
to know what is taking so long, where is the accountability, 
when will you be able to assure this committee and the veterans 
who depend on these services through the web that you will be 
100 percent compliant?
    Ms. Landfried. Sure, I would be happy to address that.
    We are absolutely committed to making sure that all of the 
information that veterans need about benefits, about healthcare 
available to them, and everything else that we have to offer is 
available to them as electronic products through our web sites 
and forms. And the memo that was mentioned earlier by the 
chairman, that was I think a wake-up call and accountability 
for us to say there are these waivers out there, what are we 
doing with them?
    Mr. O'Rourke. With the chairman's indulgence could I just 
ask you a really quick pointed question? Give us a date by when 
every single page on every single VA web site will be 508 
compliant.
    Ms. Landfried. And the reason that we keep talking about 
the process is, is that if I was 100 percent compliant tomorrow 
new systems are going to come online, additional forms are 
going to be added, additional web pages are going to be added, 
additional documents are going to be added, so----
    Mr. O'Rourke. This does not build confidence in you and 
what you are doing and what our veterans can expect, and I 
would hope that you could come back to this committee with a 
set date and from that date we are 100 percent compliant and 
every day there forward we will be 100 percent compliant.
    Ms. Landfried. Okay.
    Mr. O'Rourke. I think that is what we are asking, I don't 
think it is too much to expect, and I think that is what the 
veterans that we serve deserve.
    So with that I yield back to the chair.
    Mr. Coffman. Thank you, Mr. O'Rourke.
    Ms. Kirkpatrick.
    Ms. Kirkpatrick. Dr. McCarthy, I appreciate your 
willingness to provide the committee with a year by year 
breakdown of how the money has been spent. You know, that is 
part of our responsibility on this committee is, Mr. Chairman, 
to oversee how taxpayer dollars are being spent. So I am going 
to ask that within that year by year breakdown you also 
categorize that and work with the committee staff on what 
categories seem to be appropriate and we will get that to you 
and just like to have some dialogue with our staff on that. In 
other words I would like to know how much is spent on salaries, 
how much is spent on space, how much is spent in other areas 
just so we have got an idea of how that is being spent.
    And I thank the panel for being here today, and thank you, 
Mr. Chairman, for having this meeting.
    Mr. Coffman. Thank you. Our thanks to the panel. Second 
panel you are now excused. Again this is Mike Coffman.
    All right, today we have had a chance to hear about 
problems that have led to many years passing while virtually--I 
am sorry--visually-impaired veterans continue to be denied 
equivalent access to VA services due to VA failures. As such 
this hearing was necessary to accomplish a number of items.
    First to identify the reasoning for VA's lack of progress 
in implementing the vision registry, despite years having past 
since authorization.
    Second to receive an explanation on why VA has not brought 
its system into compliance with Section 508, of the Americans 
with Disabilities Act.
    And third to determine what steps are being taken to 
correct these issues and improve the care provided to veterans 
and their ability to access crucial information.
    I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks and include 
extraneous material. Without objection so ordered.
    I would like to once again thank all of the witnesses and 
the audience members for joining us in today's conversation.
    With that this hearing is adjourned.
    [Whereupon, at 12:06 p.m., the subcommittee was adjourned.]


                                APPENDIX

                                 <F-dash>

              Prepared Statement of Chairman Mike Coffman

    Good morning. This hearing will come to order.
    I want to welcome everyone to today's hearing titled, ``Assessing 
Inadequacies in VA Data Usage for and Services Provided to Visually-
Impaired Veterans.'' My name is Mike Coffman, and prior to hearing 
testimony and asking questions to our witnesses, I ask that each Member 
state his or her name to assist our witnesses in identifying who is 
speaking. Thank you for your cooperation. Now let us begin.
    This hearing focuses on continued problems within VA that have 
caused its contribution to the Vision Center of Excellence to stagnate, 
allowed VA systems to continue to operate in noncompliance with Section 
508 of the Americans with Disabilities Act, and compromised other 
services provided to veterans with visual impairments.
    The creation of the Vision Center of Excellence, or VCE as we will 
refer to it today, was mandated by the National Defense and 
Authorization Act of FY 2008. It stated that the Department of Defense 
was required to create the facility and to collaborate with the 
Department of Veterans Affairs in doing so. One of the main 
responsibilities required in the 2008 NDAA for the operation of the VCE 
was to ``enable the Secretary of Veterans Affairs to access the 
registry and add information pertaining to additional treatments or 
surgical procedures and eventual visual outcomes for veterans who were 
entered into the registry and subsequently received treatment through 
the Veterans Health Administration.''
    The reference to the registry is that of the Defense and Veterans 
Eye Injury and Vision Registry, which we will also refer to as the 
Registry today for convenience. The DoD has done a commendable job of 
populating the Registry, with over 20,000 unique patient entries. 
However, the most recent number VA has provided the Committee regarding 
its contribution to the Vision Registry is one entry. One, compared to 
20,000. Notably, in an October 2013 briefing, VA staff stated that the 
one entry was just a test case to ensure that their transfer of 
information would work. So, essentially, VA had not entered any 
veterans information into the Registry, which precludes VA from 
meaningfully contributing to the very purpose the Registry was created, 
``to collect the diagnosis, surgical intervention, operative procedures 
and related treatments, and follow up of each significant eye injury 
incurred by members of the Armed Forces while serving on active duty.'' 
We will hear from a veteran today who will articulate the importance of 
VA fulfilling its obligation to contribute to the Registry.
    Another major issue we will address today is VA's continued failure 
to bring its information systems into full compliance with Section 508 
of the Americans with Disabilities Act. Section 508 addresses access 
for people with physical, sensory, or cognitive disabilities to various 
types of technologies. Two separate memoranda, dated July 26, 2012, 
issued by then-Assistant Secretary for Information and Technology Roger 
Baker, illustrated the ongoing problems within VA regarding Section 508 
compliance. Both memoranda reference how recent audits conducted by the 
VA showed that most of the content and information on VA web sites was 
not Section 508 compliant.
    Further, in a 2012 VA Dashboard Summary analysis, every site 
reviewed showed a status of less than 50% compliance with Section 508. 
Some notable examples include: VA Jobs (86% critical), eBenefits (95% 
critical), and VA Forms (100% critical). The rating of ``critical'' in 
the analysis states that the listed percentage is the amount of that 
web site that is ``completely inoperable.'' We will hear today in VA's 
testimony that they are making great strides in bringing VA systems 
into compliance with Section 508. However, we will also hear from a 
blinded veteran who must actually navigate these pages himself. He may 
be inclined to disagree.
    With that, I now recognize Ranking Member Kirkpatrick for her 
opening statement.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Attachment Vision Center of Excellence (VCE) Data Abstraction Contract 
                                Summary

                           September 13, 2013

    1.  June 12, 2012: VCE contacts General Services Administration 
(GSA) Contracting Officer (CO) regarding involvement of VA for funding 
of the Data Abstraction contract.
    2.   July 3, 2012: Office of Specialty Care Transformation 
contacted by Department of Defense (DoD) representative supporting VCE, 
requesting assistance with VCE Data Abstraction Contract.
    3.  July 3, 2012: Office of Specialty Care Transformation contacted 
the Office of Specialty Care Services (SCS) to assist VCE.
    4.  Patient Care Services (PCS) Budget Office was contacted by SCS 
on July 3, 2012, to review funding for VCE in support of the Data 
Abstraction Contract.
    5.  July 16, 2012:
    a. VCE sends initial paperwork for Data Abstraction Contract to 
SCS.
    b. VCE staff provides virtual introduction for VA Contracting, GSA 
Contracting, and VHA SCS staff.
    c. VA Office of Acquisition Services (OAS) assigns Contract 
Specialist advisor.
    6.  July 17, 2012: SCS notified by PCS Budget Office that funding 
would have to go through VA OAS.

    7.  July 22, 2012: VA OAS notifies SCS that funds transfer 
documents must be loaded into the VOA portal.
    8.  July 26, 2012: Attempt made to set up funds transfer to OAS.
    9.  August 22, 2012:
    a.Contracting documents forwarded to SCS Executive Assistant for 
entry into the Veterans Online Application (VOA) portal for 
acquisition.
    b.Contracting specialist notifies SCS that award is now high risk 
for not being awarded by October 1, 2012.
    10.  September 4, 2012: All requirements documents loaded into VOA 
portal.
    11.  September 11, 2012: Contracting Specialist notifies SCS that 
contracting requirement is not within the scope of the Interagency 
Agreement (IAA). Contracting Specialist recommends initiating contract 
in Quarter 1, Fiscal Year 2013.
    12.  September 30, 2012, Fiscal Year 2012 closed out. Contract not 
awarded.
    13.  October 1, 2012, contracting process reinitiated.
    14.  November 16, 2012: Rolling discussions between Contracting 
Specialist and General Services Administration (GSA) regarding use of 
the DoD/GSA IAA.
    15.  November 27, 2012: Contracting Specialist starts research to 
find another contracting vehicle to use.
    16.  November 28, 2012: Contracting Specialist request copy of DoD/
GSA IAA award for review.
    17.  November 30, 2012: Attempts to load requirements documents 
into VOA portal unsuccessful due to technical issue with the portal.
    18.  December 3, 2012: Requirements successfully loaded into VOA 
portal and Contracting Officer and Contracting Specialist assigned.
    19.  December 13, 2012: Conference call held with GSA, Contracting 
Specialist, VCE, and SCS representative to discuss issues with security 
clause.
    20.  December 18, 2012: Contracting Specialist requests new 
Determination and Findings (D&F) and part B be completed.
    21.  December 20, 2012: New 2237 issued for funding.
    22.  January 8, 2013: Contracting Specialist request submission of 
completely new requirements package to include D&F, Independent 
Government Cost Estimate, Part A and B.
    23.  February 12.  2013: New documents submitted to Contracting 
Specialist for review.
    24.  February 21, 2013: Contracting Specialist returns documents 
with comments.  Proposes to GSA to push contracting date to May/June 
2013.
    25.  March 5, 2013: Contracting Specialist returns IGCE to modify 
period of performance
    26.  March 6, 2013: Contracting Specialist notifies SCS that market 
research must be signed by an SES as the acquisition would be awarded 
to a large business vice a small business.
    27.  March 14, 2013: 2237 funding document submitted to OAS 
Contracting for base year IAA between GSA and VA.  Contracting 
Specialist returns PWS with comments for revision.
    28.  March 15, 2013: Contracting Specialist returns D&F with 
comments for revision.
    29.  March 21, 2013: Contracting Specialist sends Memorandum for 
the Record to SCS, ``the VHA Program Office is not making a serious 
effort to take ownership of this requirement and to take action to 
refine this requirement so that it can be determined actionable and can 
be reviewed and recommended for award.
    30.  April 1, 2013: Contracting Specialist informs SCS/VCE that 
contracting action is being cancelled due to shifting resources at OAS 
contracting.
    31.  April 12, 2013: Contract reinitiated with TAC.
    32.  April 19, 2013: New Contracting Specialist assigned.
    33.  June 12, 2013: GSA working on new IAA.
    34.  June 21, 2013: New documents loaded to VOA.
    35.  June 25, 2013: Previous Contracting Specialist notifies SCS/
VCE that contract will stay in Frederick OAS with new Contracting 
Specialist assigned.
    36.  June 26, 2013: OAS VOA notification received that all 
documents have been received for processing and new Contracting Officer 
and new Contracting Specialist have been assigned.
    37.  July 30, 2013: Informed by the Contracting Specialist that due 
to new VA policy this contracting action is cancelled and will be 
transferred to VHA for procurement.
    38.  July 31, 2013: SCS POC sends copies of procurement package to 
VHA Service Area Office (SAO) East contracting Officer as VA OAS had 
not transferred package.
    39.  August 8, 2013: VHA SAO East Contracting Officer requests copy 
of current DoD/GSA IAA for review.
    40.  August 16. 2013: Procurement package has to be loaded into VHA 
contracting portal eCMS. Requires establishment of account. Technical 
problems prevent establishment of account.
    41.  August 19, 2013: Electronic Contract Management System (eCMS) 
account established and procurement package loaded.
    42.  August 20, 2013: Informed by GSA that they are no longer 
accepting Fiscal Year 2013 fund transfers.
    43.  October 1, 2013: Non-essential Government employees 
furloughed.
    44.  October 16, 2013: New procurement package uploaded into eCMS 
portal.
    45.  November 14, 2013: New funding received for procurement.
    46.  November 15, 2013: Contracting Officer load's procurement 
package into actions folder.
    47.  December 12, 2014: New Contracting Officer assigned to the 
procurement.
    48.  January 2, 2014: Contracting Officer notifies SCS/VCE that he 
can proceed with processing IAAs at this time.
    49.  February 3, 2014: Contracting Officer notifies SCS/VCE that 
new procurement package required and that only VHA employees may have 
input into the package. This is crippling to VCE as DoD staff have been 
working original IAA since its inception.
    50.  February 6, 2014: Contracting Officer sends PWS back to SCS/
VCE for revision.
    51.  March 3, 2014: General Counsel makes statement that DoD 
personnel are excluded from working on this contract.
    52.  March 4, 2014: Contracting Officer decides competitive 
contracting is appropriate vehicle vice IAA.
    53.  March 26, 2014: Drafting of new Performance Work Statement 
starts.
    54.  March 27-June 16, 2014: Processing of contract continues.

                                 <F-dash>

                        QUESTIONS FOR THE RECORD

    Questions for the Record from Subcommittee Chairman Mike Coffman

    Question 1: During the hearing, I asked the VA witnesses about the 
February 2014 response to my October 2013 letter; particularly 
regarding the statement that a data abstraction contract had not been 
awarded due to contracting delays. Dr. McCarthy asked if she could take 
that question for the record. Please provide me an answer on what 
specific contract delays led to a data abstraction contract not being 
awarded.
    VA Response: The specific delays include changes in the two 
contracting agencies (VA to the Veterans Health Administration (VHA)); 
multiple changes in contracting specialists; VA and VHA not clearly 
understanding how Interagency Agreements work; and multiple requests to 
redo the procurement package.
    Question 2: Similarly, I was told that I would be provided with a 
timeline for the process of the contract awards and what the delays 
were. Please provide that response as well.
    VA Response: A timeline summary is attached.
    Question 3: Once the contract is awarded, how long will it be 
before VA begins populating the Vision Registry?
    VA Response: Due to the contract going out for bid, an exact date 
cannot be established at this time. VA is targeting an award by mid-
July 2014. The VA expects to begin populating the registry in fiscal 
year 2015.
    Question 4: According to a July 26, 2012, memorandum from the 
Assistant Secretary for Information and Technology (ASIT), no new IT 
software could be deployed unless it was Section 508 complaint. Was any 
such software created after the date of that memorandum that was or is 
not currently 508 compliant?
    VA Response: The 2012 memo effectively rescinded hundreds of 
waivers, some in effect for years. Waivers were granted to the July 26, 
2012, memorandum for various software products that VA considered 
critical to serving the needs of Veterans, including software products 
that contain information about how Veterans can access health and 
benefits information. However, these products were only allowed to be 
deployed after their respective development teams provided remediation 
plans that would move their applications towards full compliance with 
the requirements of Section 508, and the 508 Team approved their 
remediation plans as sufficient. Of the mission-critical products that 
were granted waivers to the memo, 25 remain non-compliant. Sixteen of 
these products are internal facing, meaning that they are used 
exclusively by members of the VA workforce. The other nine are external 
facing, meaning that they are used by members of the public. VA 
leadership and staff are actively engaged in implementing the approved 
remediation plans for each of these products.
    Question 5: The same memorandum also states that the Section 508 
Program Office would audit VA's 508 compliance and provide reports on a 
monthly basis. Please provide the Subcommittee with digital copies of 
these reports from July 2012 to present.
    VA Response: Requested information is enclosed.
    Question 6: In a separate memorandum from the ASIT from the same 
date, he stated that a recent audit of VA's internet framework, HTML 
code, and site framework showed that most of VA's internet sites were 
not 508 compliant. Please provide the Subcommittee with a digital copy 
of that audit and any subsequent audits.
    VA Response: Requested information is enclosed.
    Question 7: Of the top 12 busiest VA-related sites listed in the 
July 2012 memo, are there any listed that remain noncompliant with 
Section 508? If so, which ones and why are they still noncompliant?
    VA Response: The top 12 busiest VA Web sites are listed below. VA's 
Web sites are constantly being changed and modified, which creates 
challenges in maintaining compliance with Section 508 standards. 
However, over the last 2 years, VA's enterprise-wide use of Section 508 
compliant Web design templates has greatly improved the level of 
compliance with Section 508.

 
------------------------------------------------------------------------
                                                           Current 508
                                                         compliance rate
             Web sites from July 2012 memo                 (as of June
                                                              2014)
------------------------------------------------------------------------
www.va.gov.............................................             59%
www.vba.va.gov.........................................             57%
www.gibill.va.gov......................................             89%
www.va.gov/opa.........................................             52%
www.va.gov/directory...................................             80%
www.va.gov/forms.......................................             92%
www.vacareers.va.gov...................................             87%
www.va.gov/health......................................             78%
www.insurance.va.gov...................................             92%
www.va.gov/jobs........................................             50%
www.ebenefits.va.gov/ebenefits-portal/ebenefits.portal.             15%
www.myhealth.va.gov....................................             95%
------------------------------------------------------------------------

                                 [all]
</pre></body></html>
